No. 20-303

 

In THE
Supreme Court of the United States

UNITED STATES OF AMERICA,
Petitioner,
Vv.
JOSE LUIS VAELLO-MADERO,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the First Cireuit

BRIEF OF AMICI CURIAE PLAINTIFFS IN
PENA MARTINEZ v. U.S. DEPARTMENT OF
HEALTH & HUMAN SERVICES IN SUPPORT
OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,888 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 7, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
